          Audit Report




Performance Indicator Audit:
      Disability Claims




    A-15-12-12116 | April 2013
MEMORANDUM


Date:      April 3, 2013                                                      Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Performance Indicator Audit: Disability Claims (A-15-12-12116)

           We contracted with KPMG, LLP to evaluate three of the Social Security Administration’s
           performance indicators (PI) established to comply with the Government Performance and
           Results Act of 1993. The attached final report presents the results of two of the PIs evaluated.
           For the PIs included in this audit, KPMG’s objectives were to:

           1. Comprehend and document the sources of data that were collected to report on the specified
              PIs.

           2. Identify and test critical controls (both electronic data processing and manual) of systems
              from which the specified performance data were gathered.

           3. Test the adequacy, accuracy, reasonableness, completeness, and consistency of the
              underlying data for each of the specified PIs.

           4. Recalculate each measure to ascertain its accuracy.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Performance Indicator Audit: Disability Claims
A-15-12-12116

April 2013                                                                Office of Audit Report Summary

Objectives                                Findings

To (1) comprehend and document the        KPMG tested the key internal controls over the Disability
sources of data that were collected to    Operational Data Store, which generates the data supporting the
report on the specified performance       PIs. Test work did not identify any findings related to the internal
indicator (PI); (2) identify and test     controls over the systems supporting the PI.
critical controls (both electronic data
processing and manual) of systems         Disability Determination Services Cases PPWY
from which the specified performance
data were gathered; (3) test the          KPMG recalculated the PI and noted that the PPWY per their
adequacy, accuracy, reasonableness,       calculation was 300 compared to 287, as reported in the PAR. In
completeness, and consistency of the      addition, KPMG was unable to obtain underlying data supporting
underlying data for each of the           the PI. Based on test work performed, KPMG identified significant
specified PIs; and (4) recalculate each   findings related to the adequacy, accuracy, reasonableness,
measure to verify its accuracy.           completeness, and consistency of the underlying data.

Background                                Achieve the Target Number of Initial Disability Claims Pending

We contracted with KPMG, LLP              KPMG noted one instance where SSA could not provide the
(KPMG) to evaluate two of the Social      detailed underlying data supporting the disability claims pending as
Security Administration’s (SSA) PIs       of the end of FY 2011. While this is one instance, the detailed
established to comply with the            underlying data is key in determining the total number of disability
Government Performance and Results        claims pending at the end of the year and validating the accuracy of
Act of 1993. KPMG audited the PIs,        cases pending. Test work identified significant findings related to
Disability determination services cases   the adequacy, accuracy, reasonableness, completeness, and
production per work year (PPWY) and       consistency of the underlying data.
Achieve the target number of initial
                                          Recommendation
disability claims pending, which was
included in Social SSA’s Fiscal Year      KPMG recommended that SSA use the same formula it uses to
(FY) 2011 Performance and                 calculate the PPWY as reported in the FD:15, Staffing and
Accountability Report (PAR).              Workload Analysis Report to calculate the PPWY, as reported in
                                          the PAR.

                                          The Agency agreed with our recommendation.
TABLE OF CONTENTS
Objectives ........................................................................................................................................1
Background ......................................................................................................................................2
Results of Review ............................................................................................................................3
     Disability Determination Services Cases Production Per Work-year........................................3
           Background ..........................................................................................................................3
           PI Calculation.......................................................................................................................3
           Findings ..............................................................................................................................4
     Achieve the Target Number of Initial Disability Claims Pending.............................................5
           Background ..........................................................................................................................5
           PI Calculation.......................................................................................................................5
           Findings ..............................................................................................................................5
Conclusions ......................................................................................................................................6
Recommendation .............................................................................................................................7
Agency Comments ...........................................................................................................................7
KPMG’s Response ...........................................................................................................................7
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Flowcharts and Narratives .................................................................................. B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Performance Indicator Audit: Disability Claims (A-15-12-12116)
ABBREVIATIONS
Act                  Social Security Act

DDS                  Disability Determination Services

DiODS                Disability Operational Data Store

FD:15                Staffing and Workload Analysis Report

FY                   Fiscal Year

GAO                  Government Accountability Office

GPRA                 Government Performance and Results Act of 1993

MCS                  Modernized Claims System

NDDSS                National Disability Determination Services System

OASDI                Old-Age, Survivors and Disability Insurance

OASSIS               Office of Applications and Supplemental Security Income Systems

OIG                  Office of the Inspector General

OMB                  Office of Management and Budget

PAR                  Performance and Accountability Report

PI                   Performance Indicator

PPWY                 Production Per Work-Year

Pub. L. No.          Public Law Number

SAOR                 State Agency Operations Report

SSA                  Social Security Administration

SSDI                 Social Security Disability Insurance

SSI                  Supplemental Security Income

U.S.C.               United States Code

VSAM                 Virtual Storage Access Method


Performance Indicator Audit: Disability Claims (A-15-12-12116)
MEMORANDUM
Date: March 13, 2013
To:         Inspector General
From: KPMG, LLP
Subject: Performance Indicator Audit: Disability Claims (A-15-12-12116)

OBJECTIVES
The Government Performance and Results Act of 1993 (GPRA) 1 seeks to improve the
Government’s internal management, as well as program effectiveness and public accountability,
by promoting a new focus on results, service quality, and customer satisfaction. 2 Specifically,
GPRA requires that the Social Security Administration (SSA) establish performance indicators
(PI) to measure or assess each program activity’s relevant outputs, service levels, and outcomes. 3
GPRA also requires a description of the means employed to verify and validate the measured
values used to report on program performance. 4

For this audit of SSA’s PIs for Fiscal Year (FY) 2011, Disability determination services cases
production per work year and Achieve the target number of initial disability claims pending, our
objectives were to:

1. Comprehend and document the sources of data that were collected to report on the specified
   PIs.

2. Identify and test critical controls (both electronic data processing and manual) of systems
   from which the specified performance data were gathered.

3. Test the adequacy, accuracy, reasonableness, completeness, and consistency of the
   underlying data for each of the specified PIs.

4. Recalculate each measure to ascertain its accuracy.

                                           *******************




1
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
2
    Id. at §§ 2(a)(3) and (6).
3
    31 U.S.C. § 1115(a)(4).
4
    31 U.S.C. § 1115(a)(6).




Performance Indicator Audit: Disability Claims (A-15-12-12116)                                              1
This performance audit did not constitute an audit of financial statements in accordance with
generally accepted government auditing standards. KPMG, LLP (KPMG) was not engaged to,
and did not, render an opinion on SSA’s internal controls over financial reporting or financial
management systems (for purposes of Office of Management and Budget Circular A-127,
Financial Management Systems, January 9, 2009, as revised). KPMG cautions that projecting
the results of its evaluation to future periods is subject to the risks that controls may become
inadequate because of changes in conditions or because compliance with controls may
deteriorate.

BACKGROUND
We audited the following PIs, which were included in SSA’s FY 2011 Performance and
Accountability Report (PAR).

                                                  Table 1: PIs
                             PI                         FY 2011 Target             FY 2011 Actual
            Disability determination
            services cases production per                     275 6                      287 7
            work-year. 5
            Achieve the target number of
            initial disability claims                       845,000 9                 759,023 10
            pending. 8

The strategic objectives related to these PIs are: Fast-track cases that obviously meet our
disability standards and Make it easier and faster to file for disability benefits online. Both PIs
and strategic objectives correspond to SSA’s Strategic Goal 2, Improve the speed and quality of
our disability standards.11




5
    SSA’s FY 2011 PAR, page 60.
6
    Id.
7
    Id.
8
    SSA’s FY 2011 PAR, page 62.
9
    Id.
10
     Id.
11
     Annual Performance Plan for FY 2012 and Revised Final Performance Plan for FY 2011, page 8.




Performance Indicator Audit: Disability Claims (A-15-12-12116)                                        2
SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) and Supplemental
Security Income (SSI) programs. The OASDI program, authorized by Title II of the Social
Security Act (Act), provides income for eligible workers and eligible members of their families
and survivors. 12 Social Security Disability Insurance (SSDI) provides entitlement benefits under
the OASDI program, as authorized by Title II of the Act. SSDI provides income for eligible
workers with qualifying disabilities and eligible members of their families before those workers
reach retirement age. 13 The SSI program, authorized by Title XVI of the Act, was designed as a
needs-based program to provide or supplement the income of aged, blind, and/or disabled
individuals with limited income and resources. 14

RESULTS OF REVIEW
Disability Determination Services Cases Production Per Work-year
Background
The disability determination services (DDS) cases production per work-year (PPWY) PI was
formerly a program performance measure 15; it became a new GPRA PI in FY 2011. The PI is
based primarily on workload and work-year data obtained from the State Agency Operations
Report (SAOR), which is generated from the Disability Operational Data Store (DiODS)
database. Workload data represent disability claims processed, while work-year data are the
number of hours provided by one employee working full-time for 1 year. A work-year includes
both direct and indirect time and includes everyone on the DDS payroll as well as furlough, non-
Federal, field office detail, clerical contract, non-clerical contract, part-time, part-time temporary,
and overtime hours. The DDS is responsible for manually inputting work-year data in DiODS.
DiODS generates the DDS Staffing and Workload Analysis Report (FD:15). The FD:15 is a
FY-to-date cumulative report and is used to calculate a cumulative PPWY, adjusted cumulative
PPWY, PPWY current week, rolling 4 week PPWY, and quarterly PPWY. The formula used to
calculate the PPWY for the FY is the adjusted cumulative PPWY.

PI Calculation
The PI is derived by determining the average number of all DDS cases produced per work-year
expended for all work.


12
     The Act §§ 201, 202 and 223, 42 U.S.C. §§ 401, 402 and 423.
13
     Id.
14
     The Act § 1602, 42 U.S.C. § 1381a.
15
  A diagnostic tool designed by the Office of Management and Budget to examine different aspects of program
performance and identify the strengths and weaknesses of a given Federal program.




Performance Indicator Audit: Disability Claims (A-15-12-12116)                                                3
                                  Table 2: DDS cases PPWY Formula
                                               Total Clearances/
                                 Less:                          Plus:                 Plus:
        (Full-time Permanent     (Furlough Hours + Non-         (Part-Time Hours +    Cumulative
        Staff + Full-Time        Federal Hours + Field          Part-Time             Overtime
        Temporary                Office Detail Hours -          Temporary             Hours/33.75
        Staff)*(State            Clerical Contract Hours -      Hours)/40
        Workweek Hours)          Non-Clerical Contract
                                 Hours)/40
                                                     /52

Findings
We tested the key internal controls over DiODS. Our testwork did not identify any findings
related to the internal controls over the system supporting the PI.

We recalculated the PI and noted that the PPWY per our calculation was 300 compared to 287,
as reported in the PAR. In addition, we were unable to obtain underlying data supporting the PI.
Based on testwork performed, we identified significant findings related to the adequacy,
accuracy, reasonableness, completeness, and consistency of the underlying data.

Accuracy of the PI

In accordance with SSA’s Management Information Manual, the PPWY is calculated using the
adjusted cumulative PPWY formula. 16 We were unable to recalculate the PI using the adjusted
cumulative PPWY formula because SSA used a different formula. SSA used the following
calculation to determine its actual performance for FY 2011.

                                                      Total Clearances
                           DDS Cases PPWY =
                                                      Work-Year Used

We noted that, while we were able to recalculate the PI using the formula SSA actually used, it
was not the same formula described in the Management Information Manual. As a result, we
were unable to determine the accuracy of the PI.

Adequacy, Accuracy, Reasonableness, Completeness, and Consistency of Underlying Data

The Government Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government states that “. . . all transactions and significant events need to be clearly documented




16
     Management Information Manual, Part-IV for the DDS Work Measurement System, Chapter 2400, page 6.




Performance Indicator Audit: Disability Claims (A-15-12-12116)                                           4
and the documentation should be readily available for examination.” 17 We were unable to obtain
the detailed data supporting the SAOR because SSA deemed the SAOR as the support and did
not require that the DDS provide the detail supporting the SAOR. We also noted that the DDS
manually inputs the hours reported in the SAOR, and there is no supporting documentation for
the hours. As a result, we were unable to verify the adequacy, accuracy, reasonableness,
completeness, and consistency of the underlying data for this PI.

Achieve the Target Number of Initial Disability Claims Pending
Background
Claimants initiate a disability claim by filing an initial disability application and SSA Forms
3368, Disability Report Adult, or 3820, Disability Report Child. The application and Forms
3368 or 3820 can be submitted to SSA by a claimant in one of three ways:

•    over the Internet (via the SSA Website),

•    by telephone, or

•    by visiting a local field office.

All initial disability applications are processed at 1 of more than 1,300 field offices that are
aggregated into 10 regions. Regardless of how a claim is filed, a local field office representative
reviews all initial disability claims submitted. There are various other forms that may also be
required depending on a claimant’s work status, age, disability allegations, mental health,
income, work history, and education. However, SSA Forms 3368 or 3820 are required for all
claimants as these Forms contain the information necessary for determining whether an
individual qualifies for DI or SSI.

PI Calculation
The PI is derived by determining the number of OASDI or SSI initial disability claims pending
in the State DDS and other agency components in the current FY.

Findings
We tested the key internal controls over DiODS. Our testwork did not identify any findings
related to the internal controls over the system supporting the PI.




17
  GAO Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1, November 1999,
page 15.




Performance Indicator Audit: Disability Claims (A-15-12-12116)                                       5
We noted one instance where SSA could not provide the detailed underlying data supporting the
disability claims pending as of the end of FY 2011. While this is one instance, the detailed
underlying data is key in determining the total number of disability claims pending at the end of
the year and validating the accuracy of cases pending. Our testwork identified significant
findings related to the adequacy, accuracy, reasonableness, completeness, and consistency of the
underlying data.

Adequacy, Accuracy, Reasonableness, Completeness, and Consistency of Underlying Data

GAO’s Standards for Internal Control in the Federal Government states that, “. . . all transactions
and significant events need to be clearly documented and the documentation should be readily
available for examination.” 18 We were unable to obtain the detailed data supporting the PI
because SSA had no requirement to maintain it. As a result, we were unable to verify the
adequacy, accuracy, reasonableness, completeness, and consistency of the underlying data for
this PI.

CONCLUSIONS
Based on the results of our audit, we do not believe the PIs were adequate, accurate, reasonable,
complete, and consistent with the underlying data. We noted, however, that internal controls
over the system supporting the PIs were operating effectively.

In response to prior PI audits, SSA stated it did not maintain data to support some PIs as a result
of computer storage capacity issues and staffing resources. Over the past several years,
technology has evolved and the cost of storing data has decreased. Therefore, this is an
opportune time for SSA to reevaluate computer storage capacity and cost. In prior audits, SSA
also quoted Office of Management and Budget (OMB) Circular A-11, Preparation, Submission
and Execution of the Budget 19, which states, “Performance data need not be perfect to be
reliable, particularly if the cost and effort to secure the best performance data will exceed the
value of any data so obtained.” 20 Currently, Circular A-11 states, Performance data need not be
perfect to be reliable; however, significant data limitations can lead to inaccurate assessments
and distort performance results. Examples of data limitations include imprecise measurement
and recordings, incomplete data, inconsistencies in data collection procedures, and data that are




18
  GAO Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1, November 1999,
page 15.
19
     OMB Circular A-11, Preparation, Submission, and Execution of the Budget, August 2012, Section 260.9.
20
     OIG Performance Indicator Audit: Outstanding Debt (A-02-05-15116, January 27, 2006, page D-2).




Performance Indicator Audit: Disability Claims (A-15-12-12116)                                              6
too old and/or too infrequently collected to allow quick adjustments of agency action timely and
cost-effectively. 21

Additionally, Circular A-11, section 260.9, states that verification and validation of performance
data to support the general accuracy and reliability of performance information reduces the risk
of inaccurate performance data and provides a sufficient level of confidence to the Congress and
the public that the information presented is credible. 22 Although we are not making formal
recommendations related to maintaining data, we encourage SSA to revisit the issue of
maintaining data to support the PIs reported in the Agency’s annual PAR. Maintaining the
supporting data would enable third-party evaluations of the PI, as suggested by Circular A-11.

RECOMMENDATION
We recommend that SSA use the same formula it uses to calculate the PPWY as reported in the
FD:15 report to calculate the PPWY as reported in the PAR.

AGENCY COMMENTS
The Agency agreed with our recommendation. In addition, the Agency provided general
comments on the report, which we addressed in our response. The Agency’s complete
comments are included in Appendix C.

KPMG’S RESPONSE
KPMG responses to the Agency’s general comments are as follows:

General Comments - Paragraph 2

In Appendix A, Scope and Methodology, we state in the last bullet that we considered the
transactions through week 53 in recalculating the PI because the FY contained 53 weeks rather
than the usual 52. While we agree that we were able to recalculate the PPWY, we disagree with
the Agency’s statement that there were no significant findings related to the adequacy, accuracy,
reasonableness, completeness, and consistency of the underlying data. We also disagree that our
findings were the result of misinterpretations of what a work-year includes and the use of the
Management Information Manual. Our finding was the direct result of SSA providing three
different formulas, each yielding a different PPWY calculation. As a result, we were unable to
determine the actual PPWY calculation for the FY. Further, management was unable to provide
the underlying data supporting the calculation of the PPWY.



21
     OMB Circular A-11, Preparation, Submission, and Execution of the Budget, August 2012, Section 260.9.
22
     Id.




Performance Indicator Audit: Disability Claims (A-15-12-12116)                                              7
General Comments - Paragraph 3

We disagree with the Agency’s statement that there were no significant findings related to the
adequacy, accuracy, reasonableness, completeness, and consistency of the underlying data. We
based our findings on SSA’s inability to provide the underlying data supporting the PIs. We
routinely request the underlying data and, as stated in the report, it is key in determining the total
number of disability claims pending at the end of the year and validating the accuracy of cases
pending. Without that data, we cannot determine whether case closing dates were accurate or
whether pending cases were accurate. While there were no issues with the internal controls over
the system, we could not rely solely on the internal controls to verify the accuracy of data input.
The internal controls tested verified that the system processed transactions accurately but cannot
be relied on for data input accuracy. Furthermore, for disability claims pending, our report did
not state we were able to recalculate the PI. We were unable to recalculate the PI because the
underlying data was key to determining the accuracy of the PI.

General Comments - Paragraph 4

As storage capacity technology improves, it is beneficial for SSA to consider the impact
improved storage capacity has on its costs to acquire new technology and its limited staffing
resources. Without an evaluation, SSA cannot determine whether acquiring additional storage
capacity outweighs the costs of not acquiring the additional storage and its impact on staffing
resources.

General Comments - Paragraph 5

We reviewed and considered the suggested edits. However, we believe they change the facts we
obtained through our interviews and review of agency documents. Therefore, we did not
incorporate any of the suggested edits.




Performance Indicator Audit: Disability Claims (A-15-12-12116)                                       8
                                       APPENDICES




Performance Indicator Audit: Disability Claims (A-15-12-12116)
Appendix A – SCOPE AND METHODOLOGY
We obtained an understanding of the Social Security Administration’s (SSA) Government
Performance and Results Act of 1993 1 business processes related to the performance indicators
(PI), Disability determination services cases production per work-year and Achieve the target
number of initial disability claims pending. Our understanding was obtained through research
and interviews with key SSA personnel from the Offices of Disability Determination (ODD) and
Applications and Supplemental Security Income Systems (OASSIS).

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we performed the following.

•   Reviewed the Annual Performance Plan for Fiscal Year (FY) 2011 and Revised Final
    Performance Plan for 2011 to obtain an understanding of the FY 2011 PIs.
•   Reviewed prior Office of the Inspector General and Government Accountability Office
    reports related to SSA’s PIs.
•   Reviewed applicable laws, regulations, and SSA policy.
•   Reviewed documentation and flowcharts of the PI components.
•   Flowcharted the disability claims process (see Appendix B)
•   Identified and tested key controls related to manual or basic computerized processes (for
    example, spreadsheets, databases, etc.).
•   Determined the adequacy, accuracy, reasonableness, completeness, and consistency of
    performance data reported in SSA’s FY 2011 Performance and Accountability Report.
•   Assessed the completeness and accuracy of the data to determine their reliability as they
    pertain to the audit objectives.
•   In recalculating the performance data, we considered transactions through week 53.
    Every 5 or 6 years, the FY contains 53 weeks rather than the normal 52. FY 2011 was a
    53-week FY.

We conducted our performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. SSA could not provide certain evidence requested. However, we believe the
lack of evidence obtained does not preclude a reasonable basis for our findings and conclusions
based on our audit objectives. Further, we could not assess data reliability.


1
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).




Performance Indicator Audit: Disability Claims (A-15-12-12116)                                              A-1
Appendix B – FLOWCHARTS AND NARRATIVES
        Figure B–1: DDS Cases Production per Work-Year and Disability Claims Pending
                                 Systems Process Flowchart
                                                                            2.1e – DDS cases production per work-year
                                                                2.2b – Achieve the Target Number of Initial Disability Claims Pending


                                        Title XVI                                                                                    Title II
                          SSI for the Aged, Blind and Disabled                                                                       OASDI

                                              START
                                              Title XVI
                                                                                                                                  Internet Users – Members of the
                                              Manual                                   START                                   American public enter their application
                                                                                                              Internet
                                                                                       Title II                                 for disability benefits using an online
        START                                                                                                                                                                         NOTE: Only after Disability
                                                                                                                                               application
                                       Applicant visits field                                                                                                                         Claims are completed are they
                                         office and data                                                                                                                              imported into the MCS system
                                                                                       Manual                                                                                         and managed thru the Claims
                                      recorded in MSSICS
                                                                                                                                                                                      production process and
       No SSN
                                                                                                                                                                                      reported thru PAR
  (pre-mature baby)                                                           CR (Field Office):
                                                                              1) CR enters disability                                          iClaim
                                                                              applications / claims for                                      Application
                                           Title XVI                          applications that contact them
    A pseduo-SSN is                       Operational                         directly, e.g., in the field office and
    created and sent                      Data Store                          2) CR works applications that have
 directly to DDS rather                                                       been entered thru the Internet
  than through EDCS                                                                                                                                                                  C2G Reports -
        and EFI.                                                                                                                                                                        EMIS


                                                                                                                                          CR (Field Office)

                                                                                                                                                                                                   NOTE: Although
                                                                                                                                                                                                   depicted as a single
                                                                                                                                                                                                   connector between
                                                                                                                                                                                                   NDDSS and MCS, there
         DDS                            EFI                           EDCS                                                                                                                         are multiple batch jobs,
                                                                                                                                                                                                   Traffic Files, and Fan
                                                                                                                                                                                                   Jobs that provide input to
                                                                                                                                                MCS                            A
                                                                                                                                                                                                   update MCS



                                                                                                          Using the Predictive                                                                   Control Point - CP-1
                             NDDSS                        A                                               Model and Compassion                                                          Jobs are scheduled to extract disability
                                                                                                          Allowance Disability                                                           data from MCS and update the Title II
                                                                                                                                                                                         Operational Data Store are scheduled
                                                                                      SDR                 Categories Table                                                                         within Control M.
                                                                                                          EDCS identifies QDD
                                                                                                          and CAL Claims
                                                                                                                                                                                      MCS database tables used as
                                                                                                                                                                                      primary input to batch jobs that
                               B                                                                                                                       Report
                                                                                                                                                                                      update the T2 WMI ODS
                             Page 2                                                                                                                    Office
                                                                                                                                                   DOORS
                                                                                                                                                                                                Control Point CP-2
                                                                                                                                            CLIENT                                       The run-to-run totals between the
                                                                                                                                                                                           MCS and Title II ODS match.
                                                                                                                                   Title II
                                                                                                                                 Operational
                                                                                                                   Appeals       Data Store
                                                                                                                  Data Store                                                                   Control Point CP-3
                                                                                                                  (FY2012)                                                               Jobs scheduled to updated the
                                                                                                                                                                                        Local MI database are scheduled
                                                                                                                                                                                               within Control M.




                                                                                                                                                                                              Control Point - CP-4
                                                                                                                                                                                    Jobs are scheduled to extract disability
                                                                                                                                                                                   data from MSSICS and update the Title XVI
                                                                                                                                                                                     Operational Data Store are scheduled
                                                                                                                                                                                               within Control M.




                                                                                                                                                                                            Key Control Point CP-5
                                                                                                                                                                                   The run-to-run totals between the MSSICS
                                                                                                                                                                                           and Title XVI ODS match.




                                                                                                                                                              Definitions:
                                                                                                                                                              •   Control Points (CP)
                                                                                                                                                              •   Disability Determination Services (DDS)
                                                                                                                                                              •   Electronic Disability Collect System (EDCS)
                                                                                                                                                              •   Electronic Folder Interface (EFI)
                                                                                                                                                              •   Executive and Management Information System (EMIS)
                                                                                                                                                              •   Modernized Claims System (MCS)
                                                                                                                                                              •   Modernized Supplemental Security Income System
                                                                                                                                                                  (MSSICS)
                                                                                                                                                              •   National Disability Determination Services System
                                                                                                                                                                  (NDDSS)
                                                                                                                                                              •   Old-Age, Survivors and Disability Insurance (OASDI)
                                                                                                                                                              •   Sources of Death Record (SDR)
                                                                                                                                                              •   Supplemental Security Income (SSI)
                                                                                                                                                              •   Social Security Number (SSN)




Performance Indicator Audit: Disability Claims (A-15-12-12116)                                                                                                                                                                B-1
 Definitions:                                                                       2.1e – DDS cases production per work-year
                                                                        2.2b – Achieve the Target Number of Initial Disability Claims Pending
 • Control Points (CP)
 • Disability Determination Services (DDS)
 • Disability Operational Data Store (DiODS)
 • Federal Disability (FD)
                                                                                                                     B
 • Microsoft Excel (xls)
                                                                                                                   Page 1
 • Modernized Claims System (MCS)
 • Modernized Supplemental Security Income System
   (MSSICS)
 • National Disability Determination Services System
   (NDDSS)
 • Office of Applications and Supplemental Security
   Income Systems (OASSIS)
 • State Agency Operations Report (SAOR)
 • Structured Query Language (SQL)
 • Social Security Administration Claims Control System                                                            NDDSS
   (SSACCS)
 • Visual Basic (VB)




                                                                                                                 Daily Batch
                                                                                                               Process extracts
                                                                                                              data from NDDSS




                                                                                                             NDDSS Files (flat files
                                                            Operations notify
                                                                                                           from daily batch process
                                                          OASSIS team whether
                                                                                                               that identifies daily
                                                            the nightly batch
                                                                                                              changes that will be
                                                               completed
                                                                                                                 loaded into DB2
                                                          successfully via email
                                                                                                                    Database)




                                                                                                                    DB2
                                                                           Key Control Point – CP-5               Database
                                                                         Access to change data within
                                                                         the DIODS DB is restricted to
                                                                            appropriate individuals.
                                                                                                                                                                      START



                                                                                                           DiODS application (VB)
                                                                                                           create canned end user
                                                                                                           reports via query (SQL)              Weekly     DDS Input personnel hours and
                                                                                                          and outputs the results in                       staffing information (workyear)
                                                                                                                an xls format                                         into DiODS




                                                                                                                                  SAOR
                                                                                                                                Generated
                                                                                                                                 (Claims                 END
                                                                                                                              Pending Report)
                                                                                                           FD-15 Report
                                                                                                            Generated
                                                                                                            (Staffing &
                                                                                                         Workload Analysis)




Performance Indicator Audit: Disability Claims (A-15-12-12116)                                                                                                               B-2
PROCESS NARRATIVES
DDS Cases Production Per Work-year
DDSs are State entities that make disability determinations based on the Social Security
Administration’s (SSA) laws, regulations, and guidelines. SSA pays 100 percent of necessary
costs incurred by the States in performing the disability function. 1 The DDS inputs the receipt of
a disability claims into the National Disability Determination Services System (NDDSS).
NDDSS receives the claimant information from one of three systems: Modernized Claims
(MCS), Modernized Supplemental Security Income, or Social Security Administration Claims
Control. Once the DDS receives the information, it reviews the medical evidence and makes a
medical determination. If the evidence is insufficient, the DDS schedules a consultative
examination. After a decision has been made, the DDS inputs the information on Form SSA-
831, Disability Determination and Transmittal. The claim is then approved or denied, which
results in the end of the medical portion of the decision. At this point, the case is closed in
NDDSS.

The NDDSS interfaces with the Disability Operational Data Store (DiODS) through a nightly
batch file, which provides processed claims data. The DDS also manually inputs personnel
hours and staffing information into DiODS. DiODS combines these two numbers to calculate
the cumulative claims processed per work-year for each State or region as well as the entire
nation. DiODS generates the DDS Staffing and Workload Analysis (FD:15) Report. The FD:15
is a fiscal year-to-date cumulative report and is used to calculate a cumulative PPWY, adjusted
cumulative production per work-year (PPWY), PPWY current week, a rolling 4 week PPWY,
and a quarterly PPWY. The formula used to calculate the PPWY for the FY is the adjusted
cumulative PPWY.

The Office of Disability Determinations (ODD) reviews the weekly FD:15 to identify anomalies
and notifies the Office of Applications and Supplemental Security Income Systems (OASSIS) of
any corrections OASSIS then corrects the errors and generates a new report for ODD review.

Achieve the Target Number of Initial Disability Claims Pending
When an applicant selects the option “Applying for Disability benefits,” they are sent to the link
entitled “Apply for Disability Benefits.” An applicant/claimant can apply for a Disability claim
based on only two options: (1) Child (under age 18) and (2) Adult (age 18 or older). After
selecting an option, the applicant/claimant identification linked to a series of steps that must be
completed for SSA to evaluate the medical information entered through the online facility for
additional review. Consistent with applying for retirement benefits through the online facility,
the personal and medical information entered through the online system is not retained until the


1
    Program Operations Manual System Section DI 39501.020 Federal/State Relationship.




Performance Indicator Audit: Disability Claims (A-15-12-12116)                                   B-3
application/claimant reaches a point in the session where they are provided a unique “application
number.” Also consistent with applying for retirement benefits through the online facility, the
system automatically sets a record entry indicator to “online.” Information provided during the
fieldwork indicated that, until the disability claim record is added to the MCS production
environment, the record is not considered “complete” and is open to modification by a customer
representative from a field office or DDS. Claims that have been entered through the online
facility have to be reviewed by an SSA field office or Immediate Claims Taking Unit consistent
with those entered by a DDS or field office.

Whether an adult or child makes a disability claim, the record entry indicator would be set to
indicate the information was entered through the online facility in the same manner. If the
applicant/claimant is unable to complete the online process and an iClaim through the Internet,
they can go into a field office and establish a claim.

However, since only “submitted” or completed claims will be processed by the MCS production
environment, if the claims representative would have to start a brand new claim within MCS.

When the iClaim record enters the SSA environment, claimant information is validated against
the NUMIDENT database. This database contains the date of birth and Social Security number
and identifies that the individual is in the system. The claimant is allowed three tries to
successfully enter the proper date of birth and Social Security number. After the third attempt,
they are locked out of the application for 24 hours. Once they are locked out of the application, a
message page is displayed to the user to contact the 800-number. During this period, the
claimant cannot change their information through the online facility.

Once the claimant successfully enters their contact information and citizenship/birth information,
they receive an application number. The application number establishes a partial record. Once
an application number has been established, the claimant has 6 months to complete the
application online before the record is purged from the iClaim data store. Information submitted
during the application process is maintained in the iClaim data store Virtual Storage Access
Method (VSAM) file. Completed claims are retrieved from this VSAM file by the claims
representatives and directed to MCS.

Only those claims flagged as “completed” will be extracted from the working environment and
processed through MCS to update the production databases. These databases include, but are not
limited to, the following: (1) Title II and XVI; (2) client-specific databases; (3) Detailed Office
Organization Resource System; and (4) report office. Claim changes that have been processed in
MCS are processed into the Electronic Disability Collect System. Claims data are then
downloaded to the Structured Data Repository where they are made available to DDS and field
offices. Once a claim record is processed into MCS and the supporting databases, it is fully
modifiable through the data entry process.




Performance Indicator Audit: Disability Claims (A-15-12-12116)                                  B-4
           Appendix C – AGENCY COMMENTS




                                            SOCIAL SECURITY

MEMORANDUM


Date:      March 12, 2013                                                          Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Kate Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Performance Indicator Audit: Disability Claims”
           (A-15-12-12116)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.




           Performance Indicator Audit: Disability Claims (A-15-12-12116)                                C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“PERFORMANCE INDICATOR AUDIT: DISABILITY CLAIMS” (A-15-12-12116)

We are pleased you were able to recalculate the performance indicators (PI) using the formulas we used.
However, the report contains some overarching themes that concern us.

For the number of disability claims processed per work year (PPWY), we do not agree that there are
significant findings related to the adequacy, accuracy, reasonableness, completeness, and consistency of
the underlying data. You accurately report that, in fiscal year (FY) 2011, we used a different formula
from what our procedures state. The report should explain why we modified our formula to account for a
53rd week in the performance calculation. We believe there were a number of other factors that
contributed to the finding, including misinterpretations of what a workyear does and does not include; the
disability determination services use of the management information manual; and the FY 2011 modified
formula and its relationship to the measures reported in our Performance and Accountability Report.

For achieving the target number of initial disability claims pending, we do not agree that there are
significant findings related to the adequacy, accuracy, reasonableness, completeness, and consistency of
the underlying data. You accurately report one instance where we could not provide the detailed
underlying data. However, for both indicators: (1) you were able to recalculate the indicators, and (2)
your testwork did not identify any findings related to the internal controls over the systems supporting the
PI.
Regarding the data retention issue, you cite the current Office of Management and Budget Circular A-11,
which states “Performance data need not be perfect to be reliable; however, significant data limitations
can lead to inaccurate assessments and distort performance results.” The circular does provide for cost
considerations by stating, “Agencies can calibrate the accuracy of the data to the intended use of the data
and the cost of improving data quality.”
http://www.whitehouse.gov/sites/default/files/omb/assets/a11_current_year/a_11_2012.pdf (Section
260.9). In response to prior audits, we noted computer storage issues and staffing resources as cost
considerations. In today’s fiscal climate, limitations on staffing resources continue to be a challenge.
Therefore, when considering overall costs, we question whether it is accurate to say, “this is an opportune
time for SSA to reevaluate computer storage capacity and cost.”

Lastly, many of your past PI audits validated our robust, systematic method and process for accurately
reporting on workloads and performance measures. We appreciate your staff’s willingness to address
these issues for this current report. We are submitting a detailed track changes document to your staff
concurrently with these comments. The additional comments include suggested revised language to
ensure the report accurately reflects our process for documenting and calculating these indicators in
FY 2011.

Recommendation 1

Use the same formula it uses to calculate the PPWY as reported in the FD:15 report to calculate the
PPWY as reported in the PAR.

Response

We agree.


Performance Indicator Audit: Disability Claims (A-15-12-12116)                                            C-2
Appendix D – MAJOR CONTRIBUTORS
Victoria Vetter, Director, Financial Audit Division

Mark Meehan, Audit Manager, Financial Audit Division

Kali Biagioli, Senior Auditor, Financial Audit Division




Performance Indicator Audit: Disability Claims (A-15-12-12116)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
